NO.:

IN THE

SUPREME COURT OF THE UNITES) STATES

STEVEN' WARREN

- Petitioner;

v.
ST/jr/f GF INDIANA

- Respondent(s);

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES SUPREME COURT

APPENDIX OF PETITIONER

Attorney for Petitioner:
<T£V£tsl

DOC# ifbTSS
MtA/ili C£!meLT/0/>/AL P/IC/UTX
3032 W. $50 SOL/TH
Bi/MKgR ///LIf WD/AA/rf
Petitioner / pro se

INDEX OF APPENDIX

Appendix A- MRfif\CRftNpUfA PRCISI ON/ INDIA hiA COURTOFA fPERL 5
Appendix B- INDIANA SUPREME COURT, DENIAL OF TRANSFER
Appendix C Appendix D Appendix E Appendix F -

3

to

t

Appendix A

3

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D),
this Memorandum Decision shall not be
regarded as precedent or cited before any
court except for the purpose of establishing
the defense of res judicata, collateral
estoppel, or the law of the case.

FILED
I Jun To-2020, 5:37 am

CLERK

Indiana Supreme Court
k Court of Appeals .
and Tax Court ^

Attorney for Appellant

Attorneys for Appellee

Stacy R. Uliana
Bargersville, Indiana

Curtis T. Hill, Jr.
Attorney General of Indiana
Justin F. Roebel
Deputy Attorney General
-Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Steven D. Warren, Jr.,

June 18, 2020

Appellant-Defendant,

Court of Appeals Case No.
19A-CR-2256

v.

Appeal from the
Allen Superior Court

State of Indiana.

The Honorable
Wendy W-, Davis, Judge

Appellee-Plaintiff.

Trial Court Cause No.
02D04-18I0-F2-50

Kirsch, Judge.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

H

Page 1 of 31

[i]

Steven Warren (“Warren”) appeals his convictions for possession of cocaine
with intent to deal1 as a Level 2 felony and possession of marijuana2 as a Class
B misdemeanor. Warren raises the following issues for our review:

[2]

I.

Whether the trial court abused its discretion by admitting
evidence from a search conducted pursuant to a search
warrant which was not supported by probable cause;

II.

Whether the State presented sufficient-evidence that he
possessed the cocaine found in the-residence,

III.

Whether the trial court abused its discretion by denying his
motion to continue; and

IV.

Whether the trial court abusedits discretion,by .allowing
-supplemental closing arguments when the-jury reached an
impasse.

We affirm.

Facts and Procedural History
[3]

On August 21, 2018, Detective Jamie Masters (“Detective Masters”) of the Fort
Wayne Police Department Vice and -Narcotics division received information
from a confidential informant (“Cl”) that the Cl could purchase crack cocaine
from a man named “Lil Steve.” The Crprovided a phone number to reach Lil

1 Seelnd. Code § 35-48-4-1.
2 Seelnd. Code § 35-48-4-11.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

5

Page 2 of 31

Steve: Tr. Vol. I at 7, 18. The Cl contacted Lil Steve by phone and, as part of a
controlled buy, met him near the gas station of a Meijer grocery store, entered
the dark blue Audi A6, and exchanged $150 of controlled~buy-money for what
was later identified as crack cocaine. Id. at 224-32; Tr. Vol. Hat 73-75, 88;
State’s Exs. 1-3, 76. After the transaction, the police followed the vehicle to the
Dupont Hospital and observed a black male exit the vehicle. Tr. Vol-. I at 246;
Tr. Vol. Hat 187, 218.
[4]

On August 24, 2918, the Cl arranged a second controlled buy for $150 worth of
crack cocaine from the same seller. Tr. Vol. I at 239-40; Tr. Vol-. II at 76-77.
Before the second buy, the Cl was shown a photo array of six individuals andwas told the suspected dealer “may or may not be” pictured. The Cl identified
Lil Steve ns Warren. Tr. Vol I at 242; Tr. Vol. II at 11. Warren drove tftesame
dark blue AudiA6, and the Cl exchanged the controlled- buy funds for cocaine.
Tr. Vol. I at 244-46; Tr. Vol. Hat 78. The vehicle was registered to Barbara
Hairston, Warren’s grandmother. Tr. Vol. /at233. Law enforcement followed
the vehideafter the buy but-lost sight of itnrtbe “areaof'Jacobs and Edgehill”
in Fort Wayne. Id. at 246; Tr. Vol. Hat 170. Following the second-controlled
buy, officers received a warrant to obtain the geolocation information (“pings”)
for the phone number that the Cl had contacted to arrange each controlled
buy.3 Tr. Vol. Hat 9-10.

3 The phone number the Cl used to contact Warren for each controlled buy was a prepaid phone. Tr. Vol. U
at 67-68.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

Page 3 of 31

[5]

On September 13, 2018, a third controlled buy occurred. Warren drove the
same blue Audi. The Cl entered the vehicle and exchanged the controlled buy
funds for what was later determined to be crack cocaine. Id. at 3-5. Law
enforcement noted that the phone’s pings were consistent with the phone
traveling from 2149 Edgehill Avenue (“Edgehill Avenue”) before the
transaction and after the transaction. Id. at 59, 80-81; Tr. Vo!-. 717at 58-59.
Police attempted to follow the blue Audi after the transaction but were not able
to do so successfully. Tr. Vol. 77 at 5.

[6]

On October 4, 2018, a fourth controlled buy occurred for another $ 150 worth of
crack cocaine. Tr. Vol. II at 8, 82. Before the transaction occurred, Fort Wayne
Police Department Vice and Narcotics Detective Shane Heath (“Detective
Heath”) conducted surveillance at Edgehill Avenue and observea Warren exit
the front doonof theTesidence;_checkthe mail, and return.to the residence. Id.
at 12, 172-74. Detective Heath observed the same blue Audi used in each
previous controlled buy leave the garage of Edgehill Avenue approximately
twelve minutes later. Id at 174. OfficersTollowed the Audi asitwent to a
Kroger grocery store and then to the location of the controlled-buy. Id. at 14,
126, 149.

[7]

On October 15, 2018, a search warrant was issued for Edgehill Avenue m Fort
Wayne, Indiana outlining the four controlled drug buys that occurred on

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

•?

Page 4 of 31

August 21, 2018, August 24", 2018, September 13, 2018, and-October-4, 2018.4
Tr. Vol. /at 17; Appellant’s Conf. App. Vol. ///at 133-36. Warren’s uncle, Rodney
Chapman, leased the residence at Edgehill Avenue, and law enforcement was
aware that Warren’s address was 1411 East Washington Blvd through
information obtained from a police database. Tr. Vol. IIat 61; Tr. Vol. /at 16.
On the morning of October 19, 2018,. law enforcement executed the search
warrant at Edgehill Avenue. Tr. Vol. I at 7. On that day, Warren was the sole
individual in the residence, and the dark blue Audi, which was used in each
controlled buy, was parked in the garage of the residence. Tr. Vol. II at 22-23.
Warren was wearing boxer shorts and a t-shirt and appeared to becoming from
the residence’s master bedroom at the time of the search. Id. at 100.
[8]

Law enforcement conducted a seardrof the residence. Detective-Masters
observed that the kitchen appeared to be the area of the residence where the
process of converting powder cocaine into crack cocaine occurred. Id. at 24-25.
Several boxes of baking soda, a blender, arrazor blade withxesidue on it, and
numerous Pyrex measuring cups, were found scattered throughout the kitchen.
Id. at 24, 240-241; State’s Exs. 21, 23. In a kitchen drawer-law enforcement
found a “larger amount of powder cocaine.” Tr. Vol. II at 24; State’s Ex. 24. In
another kitchen drawer, law enforcement found a handgun. Tr. Vol. IIat 27,

4 The pings attributable to the phone number the Cl used to arrange the controlled buys with Warren showed
that 74.2% of the pings from that phone in Fort Wayne were from the Edgehill Avenue residence, and 11.9%
of the phone’s pings were attributable to 1411 East Washington Blvd. Tr. Vol. Ill at 66. This information
was not included in the search warrant.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

$

Page 5 of 31

243. Marijuana and digital scales were found on top ofthe microwave. Id. at
27. A kitchen counter drawer contained gloves, a filter mask, and baggies. Id.
at 242. Detective Masters also found $283 on the counter to the leftof the
refrigerator and a pink substance that was later determined to contain cocaine.
Id. at 24-25, 235. The scales and the microwave tested positive for cocaine
residue, although there was no drug paraphernalia found in the kitchen. Id. at
26, 239, 246. Detective Masters observed that the amount of drugs found in-the
kitchen was “much more than a user amount ” Id, at 26[9]

In the master bedroom, law enforcement found the phone that was used to
arrange the drug purchases, a second cell phone, a nine-millimeter handgun, a
digital scale, and marijuanaparaphemalia. Id at 175-80; TV. Vol. Ill at 67, 7273. The magazine of the nine-millimeter handgunliad two partial latent
iingerprints, and-testing showed the fingerprints were consistent with Warren’s
fingerprints. TV. Vol. Hat 247; TV. Vol. Ill at 39, 42. The dresser in the master
bedroom contained Warren’s wallet and identification, $796 in currency, and a
personal check made out-to Warren. TV. Vol. II-at 182; Tr. Vol. Ill-at 2, State s
Exs. 46-48. Warren’s identification listed his address as 1411 E. Washington
Blvd., Fort Wayne, IN. State’s Ex. 46. A shoebox located near a television in
the master bedroom contained a razor blade and nametag with Warren’s name.
TV. Vol. 77 at 201-02; TV. Vol. Ill at 3; State’s Exs. 49-51. In the closet of the
master bedroom, law enforcement uncovered a Fat Albert sweatshirt with
$6,351 in the pocket. TV. Vol. II at 180; TV. Vol. Ill at 4; State’s Exs. 44-45.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

Page 6 of 31

[10]

In the second bedroom of the residence, law enforcement found a backpack
with 380.3 grams of marijuana, a leather jacket with $258 in currency, and
boxes for two handguns. Tr. Vol. //at 41-43, Tr. Vol. Ill at 5-8, 10-11; State’s
Exs. 74-75. The search of the dining room revealed additional marijuana, a
grinder, rolling papers, and two rolling devices. Tr. Vol. IIat 226-29. Law
enforcement also found a shipping label that listed Warren’s name and the
phone number used to arrange the controlled drug buys with the CL Tr. Vol. II
at 282-83; State’s Ex. 54.

[it]

The search also yielded credit union receipts dated April 20, 2018 and October
18, 2018 with the name Warren on each receipt. Tr. Vol. //at 31-33; State’s Exs.
22, 29. The search uncovered other names on documents in the house, but law
enforcement did not recall finding any identifying information for any other
individual who may have used the residence. Tr. Vol. Ill at 177, 182.

[12]

On October 25, 2018, the State charged Warren with: Count 1, possession of
cocaine with the intent to deal as a Level 2 felony; Counts 2-5, dealing in
cocaine, each as a Level 4 felony; and Count 6, possession of marijuana, as a
Class B misdemeanor. Appellant’s Conf. App. Vol. II at!7-27. On February 14,
2019, Warren filed a motion to suppress the evidence found in the search of
Edgehill Avenue. Id. at 76. The State filed its response on March 8, 2019. Id.
at 94. On April 22, 2019, Warren filed a supplemental memorandum in
support of his motion to suppress. Id. at 106-08. On that same day, the trial
court held a hearing on Warren’s motion to suppress and denied the motion.
Id. at 9, 111. Warren then filed a motion requesting the trial court certify the
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

10

Page 7 of 31

suppression order for an interlocutory appeal. The trial court denied the request
on April-30, 2019. Id. at 109-14.
[13]

On August 21, 2019, the trial court began a jury trial. Id. at 13:. On the day of
trial, Warren filed a “Motion to Dismiss, or in the Alternative, Continue Jury
Trial” due to belated discovery. The motion stated that the State provided a
198-page report to him on August 12, 2019 ofthe phone calls between
September 9, 2018 through October 9, 2018 from the phone number the Cl had
used to arrange the controlled drug buys with Warren, and Warren s counsel
had been unable to review the call detail report. Id. at 122-32. After hearing
argument from the parties, the-trial court denied the motion and found that the
prosecutor’s failure to provide the report was inadvertent and that the
-information in the call detail report was not exculpatory . Tr. Vol. I at 69, 71-7^,
75 . The trial court also found the State would be prejudiced because the Cl was
in danger due to a different case unrelated to Warren and that Warren’s motion
“in some sort of fashion ... is a stalling tactic” that was prejudicial to the
State’s casev Id. at 75.

[14]

At trial, the trial court admitted the evidence from the search of Edgehill
Avenue over Warren’s objection,- which restated his arguments from-his motion
to suppress. Tr. Vol. II at 21-22.

[15]

At the conclusion ofthe trial, the jury retired to deliberate, but after nearly six
hours of deliberations, the jury reported it was at an impasse on the intent
element of constructive possession. The trial court ordered the parties to
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18 2020

u

Page 8 of 31

provide supplemental argument on that issue. Tr. Vol. /Hat 248-49. Warren’s
counsel objected to providing supplemental argument, and, over the objection,
the trial court allowed the prosecutor and Warren’s counsel to give
supplemental argument. Id. at 249; Tr. Vol. IVat 1, 3-7.
[16]

Following the supplemental argument, the jury found Warren guilty of Count 1
and Count 6 and acquitted him of Counts 2 through 5. Tr. Vol. IVat 8-9;
Appellant’s Conf. App. Vol. ///at 55-61. On September 13, 2019, Warren was
sentenced on Count 1 to twenty-five years in the Department of Correction with
five years suspended and four years of probation and a concurrent sentence of
180 days on Count 6. Appellant’s Conf. App. Vol. II at 14. Warren now appeals.

Discussion and DecisionI.
[17]

Admission of Evidence

Warren first challenges the admission of evidence gathered from theLsearch of
Edgehill Avenue. Because Warren appeals-ffom a completed trial, we review
the trial court’s evidentiary ruling for an abuse of discretion. See Grayson v.
State, 52 N.E.3d 24, 26 (Ind. Ct. App. 2016). An abuse of discretion occurs
only when admission of evidence is clearly against the logic and effect of the
facts and circumstances, and the error affects a party’s substantial rights. Clark
v. State, 994 N.E.2d 252, 260 (Ind. 2013). We will not reweigh the evidence,
and we resolve any conflicts in the evidence in favor of the trial court’s
ruling. J.G. v. State, 93 N.E.3d 1112, 1119 (Ind. Ct. App. 2018), trans. denied.
When the challenge to the trial court’s ruling is premised on a constitutional
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

Page 9 of 31

violation, the issue-is reviewed de novo because it raises a question of
law. Pinner v. State, 74N.E.3d. 226, 229 (Ind. 2017).
Probable Cause
[18]

Warren asserts that the trial court abused its discretion when it admitted the
evidence from the search, because the search warrant issued for Edgehill
Avenue lacked probable cause in violation of the Fourth Amendment to the
United States Constitution and was'unreasonable under Article i, Section 11 of
the Indiana Constitution. He maintains that the trial court’s finding of probable
cause is “inconsistent with this Court’s holdings in Merritt v. State,SG3N.E.2&
257 (Ind. Ct. App. 2004) and State v. Vance, 119 N.E.3d 626 (Ind. Ct. App.
201“9)[..]” where this court held that the affidavits were not supported by
probable cause. AppeUant’s-Br. at 19.

[19]

In response, the State points out that a properly conducted controlled buy has
“long been held to provide sufficient probable cause to search the location
where the buy occurred.” Appellee’s Br. at 18-19: The State distinguishes Merritt
and Vance by noting that the probable cause affidavit here indicated a stronger
connection between Warren, based on his involvement in the controlled buys,
and the location to be searched. In reply, Warren argues that the evidence
shows “a singular and transient presence at the residence'’ because the affidavit
did not indicate whether Warren rented, owned, or occasionally stayed at
Edgehill Avenue and that it did not allege how frequently the Audi was parked
at that residence or whether Warren used the address for another purpose.
Appellant’s Reply Br. at 8.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 I June 18, 2020

/3

Page 10 of 31

[20]

The Fourth Amendment to the United States Constitution states:
The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures,
shall not be violated", and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and
particularly describing the place-to be searched, and the persons
or things to be seized.

[21]

“The fundamental purpose of the Fourth Amendment is to protect the
legitimate expectations of privacy that citizens possess in their persons, their
homes,-and their belongings.” Mullen v. State, 55 N.E.3d 822, 827 (Ind. Ct. App.
2016) (internal quotation-marks omitted). This protection has been extended to
the states through the Fourteenth Amendment to the United States
Constitution. Id. The text of Article I, Section 11 of the Indiana Constitution5
contains nearly identical language. State v. Spillers, 847_N.E.2d 949, 953 (Ind.
2006).

[22]

Both the Fourth Amendment to the United States Constitution and Article I,
Section 11 of the Indiana Constitution require probable cause for the issuance
of a search warrant. Smith v. State, 982 N.E.2d-393, 404 (Ind. Ct. App.

5 Article I, Section 11 similarly provides as follows:
The right of the people to he secure in their persons, houses, papers, and effects, against
unreasonable search or seizure, shall not be violated; and no warrant shall issue, but upon
probable cause, supported by oath or affirmation, and particularly describing the place to
be searched, and the person or thing to be seized.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

14

Page 11 of 31

20-13), trans. denied. For a valid warrant toissue, the police must set forth
probable cause to an issuing magistrate. -Carter v: State, 105N.E.3d 1121, 1127
(Ind. Ct. App. 2018), trans. denied. Probable cause is a “fluid concept incapable
of precise definition. . . [and] is to be decided based on the facts-of each
case. ” Figert.v. State, 686N.E.2d 827, 830 (Ind. 1997). “[T]he central question
in a probable cause determination is whether the affidavit presents facts,
together with reasonable inferences, demonstrating a sufficient nexus between
the suspected criminal activity and the spe-cificplace to be searched.” Carter,
105 N.E.3d at 1-128. “The task of the issuing magistrate is simply to-make a
practical-, common-sense decision whether, given-all the circumstances set forth
in the affidavit. . . there is a fair-probability that contraband or evidence of the
crime will be found in a particular place.” Fdinois v. Gates, 462 U.S. 213, 238
(1983)
[23]

Warren disputes that Edgehill Avenue is his-residence, and citing Merritt and
Vance, contends-that the affidavit did not allege a sufficient connection between
him and the place to be searched because the affidavit alleges only the
information gathered from the October 4, 2018 controlled buy to link him to
Edgehill Avenue. Merritt and Vance are distinguishable. In Merritt, we rejected
a search warrant affidavit because it tied illegal drugs to a person who was
selling them but not to the place to be searched. 803 N.E.2d at 260-61. In that
case, the affidavit alleged only that “an unidentified black male” had been seen
at the place to be searched with what appeared to be illegal drugs. Id. Without
facts showing that the unidentified person with the drugs frequented, lived at, or
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

IS

Page 12 of 31

stored drugs at the place to be searched, there was no probable causeTo believe
that evidence of a crime would be found there. Id.
[24]

In Vance, a confidential informant involved in three “state-sponsored buys of
cocaine” contacted an individual described by law enforcement as the “Target”
who was alleged in the probable, cause affidavit to be Dustin Vance (“Vance”).
119 N.E.3d at 628-29. We affirmed the trial court’s grant of Vance’s motion to
suppress the evidence found in the residence, explaining:
The key to the controlled buy is that the police are always in
control of the situation. But the instant circumstances were not
those of a previously-searched buyer entering a residence. Police
did notmaintain strict control in this alleged tri-level (buyerdealer-source) transaction where the alleged middle-man, who
w-as not searched and did not act as an agent of police, moved
about on his own volition and police surveillance was
interrupted. And although the cocaine ultimately produced
would.arguably have been “attributable to. the target,” see id., the
sole connection between Target and Vance’s residence, the
premises to be searched, was that Target was seen leaving the
residence. Viewing someone exit a residence~would not lead a
reasonable person to “believe that a search of those premises will
uncover evidence of a crime.” Esquerdo, 640 N.E.2d at 1029.
The search warrant, not supported by probable cause, was invalid
under the Fourth Amendment.
Id. at 631.

[25]

Here, unlike in Merritt and Vance, the search warrant shows a stronger
connection between Warren’s drug dealing and Edgehill Avenue. Unlike
Vance, there is no dispute that the controlled buys were anything other than
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

\b

Page 13 of 31

properly controlled buys, and the Cl identified Warren after the first controlled
buy, providing law enforcement with an identifiable suspect. Moreover, during
each controlled buy, law enforcement maintained surveillance on the Cl and,
unlike. Vance, conducted both pre-buy and: post-buy searches of the CL Unlike
Merritt and its singular instance of drug activity, the information related to
Edgehill Avenue was obtained after law enforcement had conducted three
previous controlled buys. The affidavit also noted that at each controlled buy
the same dark blue Audi appeared and exchanged crack cocaine for the Cl s
controlled buy funds. Appellant’s ConJ, App. Vol. TZTat-l 33-36.
[26]

In concluding that the affidavit was'supported by probable cause despite the
omission from the affidavit that Warren was not an owner or a lessee of
Edgehill Avenue, the trial court found:
I mean, it doesn’t matter what Spillman says. I mean, not that-I
don’t have faith in SpiHman, but maybe he did live at [2149
Edgehill Avenue], Maybe he’s get-multiple homes. Maybe he is
utilizing [2149 Edgehill Avenue] just to run the drugs, and you
know, there is a variety of reason[s]-so I don t feel like omitting
that from-the affidavit was in anyway looking to - was what we
categorize as omitted relevant information. I don’t think that the
detectives were misleading this Court.
Tr. Vol. I at 55-56.. The totality of the evidence surrounding the four controlled
buys, including (1) Warren’s identification by the Cl after the first controlled
buy, (2) the use of the same dark blue Audi to conduct each controlled buy with
the Cl, which was parked in the garage on the day the warrant was executed,
(3) Detective Heath’s observing Warren exit the residence, check the mail and
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

19

Page 14 of 31

return to the residence, and then leave from the garage in the dark blue Audi
before the October 4, 2018 controlled buy, and (4) the attempt by law
enforcement to track Warren after the October 4, 2018 controlled buy, show
that the affidavit was not lacking in probable cause. -Appellant’s Conf. App. Vol.
HI at 133-36. Moreover, the time between each controlled buy also, suggests an
ongoing operation and that a search of Edgehill Avenue would assist law
enforcement in locating contraband. The affidavit provided probable cause for
the issuance of the search warrant. See Bradley v. State, 4 N.E.3d 831, 842 (Ind.
Ct. App. 201-4).(stating that “[although one particular piece of evidence may
not have conclusively-established probable cause, the evidence in the affidavit,
when fitted together and viewed collectively, is-sufficient to support the trial
court’s finding of.probable cause under both the United States and Indiana
Constitutions.”) (footnote omitted).
Stateness
[27]

We turn next to-whether the information in the warrant was stale. Warren
argues that “[ejverrif there was information from which to infer a connection to
Edgehill Avenue on October 4, 2018, that information was stale by the issuance
and service of the warrant.” Appellant’s Br. at 22. Warren contends it is
speculative that he would still be at Edgehill Avenue or that there would be
evidence of cocaine dealing there on October 15, 2018, when the warrant was
issued because, without a connection to Edgehill Avenue, the previous
controlled buys are not sufficient to show probable cause for ongoing drug
dealing. Alternatively, he maintains that probable cause had dissipated by
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

18

Page 15 of 31

October 19,2018, when the search warrant was executed, noting there was no
evidence law enforcement continued surveillance or conducted any additional
buys.
[28]

The State argues that this case involves ongoing criminal activity, and,
reiterating its arguments that there was probable cause-when the warrant was
issued, maintains that the warrant was not stale. The State also argues that,
although not included-in the probable cause affidavit, law enforcement “linked
the residence to the drug dealing as the phone used to arrange the controlled
buys was kept in the residence for 74.2% of the pings after phone tracking began
on September 6, 2018,” that officers “lost sight of the Audi near Edgehill after
the second buy, and the phone’s movement was consistent with the traveling
from 2149 Edgehill Avenue before the third buy and returning to 2149 Edgehill
Avenue after that transaction” as relevant to whether probable cause existed
four days after the warrant was issued. Appellee’s Br. at 24.

[29]

In reply, Warren argues that the number of times he dealt drugs is not relevant
to the question of staleness, and there remains an insufficient connection
between Warren and Edgehill Avenue because Warren disputes that he resides
at Edgehill Avenue. He also argues that, because the information about the
phone pings was not included in the affidavit, it is irrelevant to the staleness
question.

[30]

The information contained in a search warrant affidavit must be timely.
Mehring v. State, 884 N.E.2d 371, 377 (Ind. Ct. App. 2008), trans. denied. “The

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

Page 16 of 31

general rule is that stale information cannot support a finding of probable cause,
but rather, only gives rise to mere suspicion.” Seeley v. State, 782 N.E.2d 1052,
1060 (Ind. Ct. App. 2003), trans. denied, cert, denied 540 U.S. 102€ (2003).
Nevertheless, the exact moment information becomes stale cannot-be precisely
determined. Id. We must look to the facts and circumstances of each case to
determine whether-the facts-and information contained in the search warrant
affidavit are stale. Mehring, 884 N.EJZd at 377.
[31]

In support of his position that the information in the probable cause affidavit
from the last controlled buy~on October 4, 2018 was stale when the warrant was
issued on October 15, 2018, Warren cites to Ashley v. State, 251 Ind. 359, 241
N.E.2d 264 (Ind. 1968) and State v. Haines, 114 N.E.2d 984 (Ind. Ct. App.
2002). In Ashley-, the Indiana Supreme Court held that a search warrant was
defective where the affidavit on which it was based established probable cause
that marijuana was at a residence on October 3, but the warrant was not issued
until October 11, night days laterr 251 Ind. at 367, 241 N.E.2d at 269. In
Haines, we found that “a crackrcocaine purchase that took place two (2) to six
(6) weeks prior to the probable cause hearing” to be too substantial a period of
time to support a finding of probable cause that crack cocaine could be found at
that residence. 774 N.E.2d at 990.

[32]

Here, in contrast to both Ashley and Haines, the four controlled buys occurred
over a six-week period suggesting that the operation was more ongoing than the
one-time marijuana purchase in Ashley or the two to six-week period separating
the crack cocaine purchase and the probable cause hearing as in Haines. The
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

30

Page 17 of 31

multiple buys over the course of the investigation show the ongoing nature of
drug dealing related to Warren and Edgehill Avenue. See Bennett v. State, 5
N.E.3d 498, 508 (Ind. Ct. App. 2014) (noting, in the case of an affidavit which
“merely recites an isolated crime[,]” that the “time between the occurrence and
the issuance of the warrant will likely be crucial to a determination of probable
cause ” but “where the affidavit or testimony recites criminal activity of a
protracted or continuous nature . . . such time is of less significance.” (citing
Breitweiserv. State, 704 N.E.2d 496, 500 (Ind. Ct. App. 1999))). Moreover, as
noted,-the affidavit showed a sufficient link between Warren’s more protracted
drug dealing and Edgehill Avenue in establishing probable cause for the
warrant’s issuance. Under the facts and circumstances of this case, the
information in the probable cause affidavit was not stale when the warrant was
issued.
[33]

Warren also argues that the information-in the warrant was stale by the time it
was executed on October 19, 2018 and cites in support Huffines v. State, 739

N.E.2d 1093, 1097 (Ind. Ct. App. 2000), trans. denied. Search warrants must be
executed not more than ten days after the date of issuance. See Ind. -Code § 3533-5-7(b). This court has held that search warrants executed within the
statutory ten-day period can be unconstitutional if the supporting probable
cause dissipates before execution. Huffines, 739 N.E.2d at 1096-97.
[34]

We acknowledge that the record does not support that there was additional
investigation or reassessment of the facts supporting probable cause in the
warrant in the four days after its issuance. However, we find Huffines to be
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 I June 18, 2020

SI

Page 18 of 31

distinguishable as it involved only one prior drug buy. from Huffines’s home.
Thus, under these circumstances, we cannot say that the four-day delay in the
warrant’s-exeeution rendered the information in the warrant stale at the time of
its execution. See Breitweiser, 704 N.E.2d at 501 (concluding that the initial
probable cause supporting the search warrant’s issuance continued to-exist at
the time of the search, despite the. three-day delay in its execution.)
[35]

Because the evidence in the affidavit was not stale and-provided probable cause
under Both the United States and Indiana Constitutions,6 we find no error in the
trial court’s admission of the evidence from the search of Edgehill Avenue.
Because we conclude that the affidavit was supported by probable cause we
need not address whether the good-faith exception applies.

H.
[35]

Sufficiency of the Evidence

Warren next challenges the sufficiency of the-evidence that he possessed
cocaine with the intent to deal. When we review the sufficiency of evidence to
support a-conviction, we do-not reweigh the evidence or assess the credibility of
the witnesses. Lehman v.-State, 55 N.E.3d 863, 868 (Ind. Ct. App. 2016), trans.

6 The State argues Warren waived his arguments under the Indiana Constitution regarding the search’s
reasonableness. Regardless of waiver, we find that the result is the same under the Indiana Constitution.
Although Article I, Section 11 of the Indiana Constitution appears to have been derived from the Fourth
Amendment and shares the same language, we interpret and apply it independently from Fourth
Amendment jurisprudence. State v. Bulington, 802 N.E.2d 435, 438 (Ind. 2004). Rather than looking to
federal requirements such as warrants and probable cause when evaluating Section 11 claims, we place the
burden on the State to show that under the totality of the circumstances its intrusion was
reasonable. Id, Based on the above facts, we find that the police acted reasonably, and therefore, there is no
violation of the Indiana Constitution.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

33

Page 19 of 31

denied. We consider only the evidence most favorable to the trial court s ruling
and the reasonable inferences that can be drawn from that evidence. Lock v.
State, 971 N.E.2d 71, 74 (Ind. 2012). We also consider conflicting evidence in
the light most favorable to the trial court’s ruling. Oster v. State, 992 N.E.2d 871
875 (Ind. Ct. App. 2013), trans. denied: A conviction will be affirmed if there is
substantial evidence of probative value such that a reasonable trier of fact could
have concluded the defendant was guilty beyond a reasonable doubt. Wolfv.
State, 76 N.E.3d 911, 915 (Ind. Ct. App. 2017).

[37]

Warren argues the State failed to present sufficient evidence that he
constructively possessed the cocaine found as a result of the search of Edgehill
Avenue contending that he did not have the intent to maintain control of the
cocaine found in the kitchen. The State maintains the evidence sufficiently
established that Warren had the requisite intent to maintain control-of=t-he
cocaine and that his conviction should be affirmed. In reply, Warren asserts it
was not apparent that the cocaine found in the kitchen was in plain view-and
that the State did not connect the cocaine found in the kitchen with the
controlled buys.

[38]

Warren limits his challenge to his conviction for possession of cocaine with
intent to deliver to whether he constructively possessed the cocaine. See Ind.
Code § 35-48-4-1; Appellant’s Conf. App. Vol. II at 17. Possession of contraband
may be either actual or constructive. See Gee v. State, 810 N.E.2d 338, 340 (Ind.
2004). Actual possession occurs when a person has direct physical control over
the item. Id.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

D3

Page 20 of 31

[39]

There is no evidence-in the record showing Warren had direct physical control
over the cocaine, and Warren maintains that the State failed to present evidence
that he had the requisite-intent to constructively possess the cocaine. To
establish constructive possession, the State must show that the defendant had
both the intent and the capability to maintain dominion and control over the
contraband. Id. Proof of a possessory interest in the premises on which the
contraband is found is adequate to show the capability to maintain dominion
and control over the item. Id. When possession of the premises is non­
exclusive:
[T]he inference of intent to maintain dominion and control over
the drugs must be supported by additional circumstances
pointing to the defendant’s kno wledge of the nature of the
controlled-substances and their presence. The additional
circumstances have been shown by various means: (1)
-incriminating statements made by the defendant, (2) attempted
flight or furtive gestures, (3) location-of substances like drugs in
setting? that suggest manufacturing, (4) proximity of the
contraband to the defendant, (5) location of the contraband
within-the defendant’s plain view-, and (6) the mingling of the
contraband with other items owned by the defendant.
Id. at 341 (citation and quotation marks omitted).

[40]

Warren was the sole occupant found in Edgehill Avenue at the time of the
search, but Warren’s possession of Edgehill Avenue was nonexclusive. His
uncle, Rodney Chapman, leased the premises, and the testimony presented at
trial revealed that other individuals resided or spent time at Edgehill Avenue.
Tr. Vol. /at 16; Tr. Vol. //at 22-23, 61; Tr. Vol. ///at 177, 182. Therefore, we
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

Page 21 of 31

must determine whether Warren had the intent to maintain dominion and
control over the cocaine.
[41]

Applying the factors in Gee to assess the intent to maintain dominion and
control, the fact that the cocaine was found in the kitchen, which was the_
location where the powder cocaine was processed into crack cocaine, weighs in
favor of the inference that Warren constructively possessed the cocaine. Tr.
Vol. //at 24-25, 241. In the kitchen there was a pile of baking soda boxes,
multiple boxes of baggies, a razor blade with residue, residue covered
measuring cups, a digital scale, a microwave with cocaine residue inside, $283
in currency on the counter, and a pink substance that later was determined to
contain cocaine. Id. at 24-25, 30-32, 234-35; State’sExs. 17-18, 2r-23, 25-21, 5556. The pink substance found in the kitchen that tested positive, forcocaine was
found on the countertop while some, including the “big-chunk” of powder
cocame, was found in a drawer. Tr. Vol. IIat 25, 235, 241; State’s Ex. 24.
Likewise, in the kitchen there were also two credit union receipts in Warren’s
name, one dated April 20, 2018 and the other-dated October 18, 2018,
suggesting that he stayed at Edgehill Avenue more frequently than as a-guest.
Tr. Vol. //at 31; State’s Exs. 22, 29. While the receipts were not intermingled
with the cocaine, they were found in the kitchen, which in light of the cocaine,
baking soda, baggies, razor blade and measuring cups with residue, and digital
scale, shows their proximity to a setting suggestive of drug processing. See Gee,
810 N.E.2d at 344 (explaining that the place where the contraband is found
may serve as an additional circumstance to support the inference that a
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

35

Page 22 of 31

defendant knew of the presence of-tfre contraband and its illegal character and
noting the significance of the kitchen as a gathering place.). When law
enforcement executed the search warrant, Warren appeared to be coming from
the master bedroom. Tr. Vol. IIat 100. No cocaine was found in the master
bedroom, although $6,351 in cash, a handgun-under the bed, and a box
containing Warren’s identification and wallet were found. Id. at 175-80; Tr.
Vol. Ill at 67, 72-73; State’s Exs, 42, 44-46. Finally, the cell phone that was used
to arrange the controlled buys with-the Grand that had pinged to Edgehill
Avenue 74% of the time over the period of September 6, 2018 through the
warrant’s execution was found-in the master bedroom, the room where Warrenappeared to be exiting from at the time the warrant was executed. Tr. Vol. Hat
100', 178-80; Tr. Vol. Ill at 66. A reasonable trier of fact could conclude that the
evidence presentedwas sufficient to show that Warren constructively possessed
the cocaine. See Thompsonv. State, 966~N.E.2d 112, 123 (Ind. Ct. App. 2012)
(finding the evidencrwas sufficient to show the defendant constructively
possessed the cocaine found in the residence.), trarts. denied. Therefore, the
evidence was sufficient to support Warren’s conviction.

DI. Denial of Continuance
[42]

Warren also contends that the trial court abused its discretion by denying his
motion to continue-the trial. He argues the trial court abused its discretion by
finding that his motion to continue was a stalling tactic rather than a result of
the State’s discovery violation and that his right to present a defense
outweighed the State’s concerns about the Cl’s safety in another case. Warren
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

Page 23 of 31

contends that he was prejudiced because the call detail report was critical to his
defense of misidentification and to rebut the State’s evidence from the phone
ping information, which showed how often the phone was at Edgehill Avenue.
The State maintains that the trial court did not abuse its discretion in denying
Warren’s motion to continue and that he cannot show prejudice. In reply,
Warren argues the State is overlooking the discovery violation that led to his
motion and that he was prejudiced.
[43]

Warren does not argue that he was entitled to a continuance by statute pursuant
to Indiana Code section 35-36-7-1. Rulings on non-statutory motions for
continuance lie within the discretion of the trial court and will be reversed only
for an abuse of that discretion and resultant prejudice. Jackson v. State, 758
N.E.2d 1030, 1033“(Ind. Ct. App. 2001). An abuse of discretion occurs when
the decision is clearly against the logic and effect of-the facts and circumstances
before the trial court. Id. Continuances to allow additional time for
preparation are generally disfavored in criminal cases. Baxter v. State, 522
N.E.2d 362, 366 (Ind. 1988).

[44]

After hearing argument by Warren’s counsel and from the State on Warren’smotion to continue, the trial court denied the motion, finding the State’s failure
to provide the call detail report was inadvertent and that the information m the
call detail report was not exculpatory. Tr. Vol. I at 69, 71-72, 75. It also found
the State would be prejudiced if a continuance was granted, because the Cl was
in danger due to a different case unrelated to Warren and that Warren’s motion
“in some sort of fashion ... is a stalling tactic” that was prejudicial to the
Court of Appeals of Indiana I Memorandum Decision 19A-CR-2256 | June 18, 2020

D?

Page 24 of 31

State’s case. Id. at 75. Before the commencement of Warren’s August 21, 2019
jury trial, the trial court had granted three continuances: (1) a January 21,
2019, defense motion to continue based on continuing discovery in which
Warren requested to continue the jury trial; (2) a February 18 , 2019, defense
motion to continue due to a police officer’s unavailability in which Warren
requested to continue the suppression hearing and the jury trial; and (3) an
April 19, 2019 motion to continue filed by the prosecutor due to a police
officer’s unavailability in which the prosecutor requested to continue Warren’s
jury trial. Appellant’s Conf. App. Fb/.//at 5-6, 9, 66,-80, 104. We acknowledge
that the phone call detail report was a crucial piece of evidence and Warren is
correct in citing that the preferred remedy for a discovery violation is a
continuance; however, we_are not convinced-that the trial court abused its
discretion such that Warren was prejudicea by the "disclosure of the call detail
report nine days before the trial. Warren was alone-at-Edgehill Avenue at the
time of the search, and the phone was found in the master bedroom along with
Warren’s wallet and identification. Tr. Vol. //at22-23, 100, 178-80. Warren
vigorously asserted a defense of misidentification at trial, calling multiple
witnesses to build his case, and it is speculation as to the impact of additional
review of the call detail report on the trial. Warren has not shown that the trial
court abused its discretion in denying his motion-to continue the trial or that he
was prejudiced by the denial.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

Page 25 of 31

IV. Supplemental Argument
[45]

Finally, Warren argues that the trial court abused its discretion by allowing
supplemental arguments when the jury reached an impasse. The jury
deliberated for nearly six hours, and the trial court related the following
interaction it had with the jury before ordering supplemental argument.
So, I had a note from the jurors. It is 10:50 p.m. at night. The
note came from my officer. The note says we have come to an
agreement on Count— on one count which is Count Six, guilty.
On count one through five, we currently - on count one through
five we cannot currently come to an agreement. We are hung up
on the intentionally and knowingly on count one. Counts two
through five we are five to seven towards not guilty and getting
nowhere. Then I instructed my officer, Officer Todd, to say you
have all the law and evidence before [sic] , please continue to
work, Judge Davis. I sent thatrback after conferring with both
Mr. Watkins and Ms. Yeager via the telephone. When I
returned, I sent back my own personal handwritten note that
states pursuant to the Indiana Rules I have the ability to allow,
the attorneys to_give additional arguments on the above legal
issue which the above legal issue is we are hung up on the
knowingly and intentionally in count one. I said would it be
helpful if I allow the attorneys to argue, and they sent back a note
saying yes that would be helpful. Intentionally and knowingly
possess with intent ta deliver and what is constructive transfer.
So with that, I am operating under rule 28 of the jury rules which
states that if the jury advises the Court that it has reached an
impasse in its deliberations the Court may, but only in the
presence of counsel inquire the jurors to determine whether or
how the Court and counsel can assist them in their deliberative
process After receiving the jurors’ response, if any, which I
received their response, the Court after consultation with counsel
may direct further proceedings to occur if appropriate.

Court of Appeals of Indiana |' Memorandum Decision 19A-CR-2256 | June 18, 2020

0?

Page 26 of 31

Tr. Vol. Ill at 248-49. “Responding to a written communication from the jury
implicates two protections—a common law protection and a statutory
protection. Dickenson v. State, 835 N.E.2d 542, 550 (Ind. Ct. App. 2905) (citing
Bouye v. State, 699 N.E.2d 620, 627 (Ind. 1998)). Warren does not argue that the
statutory protection is implicated and instead argues that ex parte
communication occurred but limits his arguments to the common law
protections under the Sixth Amendment to the United States Constitution and
Indiana Jury Rule 28. The State responds that Warren waived the issue of
whether the trial court’s communication to the jury was an ex parte
communication because he did not-object on that basis and objected solely on
the basis that “additional argument on constructive possession would unfairly
force him to retry the case in five minutes.” Appellee’s Br. at 40. It-argues that
the record'is ambiguous as to whether an ex parte communication occurred,
and that if any error occurred in the trial court’s communication with the jury,
the error is harmless- because the trial court did not provide substantive
instruction to the jury. In reply, Warren argues that he adequately preserved
the ex parte communication issue because he was never given the opportunity
to object, and that the State did not rebut the presumption of harm-from the
trial court’s communication with the jury.
[46]

The Indiana Supreme Court has set forth an established procedure for the trial
court to follow when the deliberating jury makes a request for additional
guidance during its deliberations. Dickenson, 835 N.E.2d at 551-

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

30

Page 27 of 31

52 (citing Stephenson v. State, 742 N.E.2d 463, 492 (Ind. 2001), cert, denied, 534
U.S. 1105 (2002)), trans. denied. Specifically, the trial court should:
notify the parties so they may be present in court and informed of
the court’s proposed response to the jury before the judge ever
communicates with the jury. When this procedure is not
followed, it is an ex parte communication and such
communications between the judge-and the jury without
informing the defendant are forbidden. However, although an ex
parte communication creates a presumption of error, such
presumption is rebuttable and does not constitute per se grounds
for reversal. When a trial judge responds to the jury’s request by
denying it, any inference of prejudice is rebutted and any error
deemed harmless.
Id. at 551 (quoting Stephenson, 742 N.E.2d at 492).

[47]

Here,-the parties dispute whether the trial courLs statement shows that it
communicated ex parte with the jury. It is not clear from the tria-i-v,0urt s
statement what the trial court specifically discussed oil the telephone with
Warren’s counsel and the prosecutor. However, we agree-with Warren that the
trial court’s statement supports the conclusion that two notes were delivered
and that there -is nothing in the statementto show that the second handwritten
note indicating the option of having the parties provide additional argument
was done in consultation with the parties. Therefore, the second note was an

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

Si

Page 28 of 31

ex parte communication, which created a presumption of error.7 See Dickenson-,
835 N.E.2d at 551. The trial court did not supplement the jury’s instructions
via the handwritten note; rather, the court stated that Indiana Jury Rule 28
could be used to allow the parties to provide additional argument. Therefore,
the inference of prejudice was rebutted and any error resulting from the
communication was harmless.
[48]

We turn next to Warren’s argument that it was reversible error for the trial
court to order supplemental closing arguments without his consent. The State
maintains that the trial court properly ordered additional argument under
Indiana Jury Rule 28 over Warren’s objection. Indiana Jury Rule 28 provides:
If the jury advises the court that it has reached an impasse in its
deliberations, the court may, butonly in the presence of counsel,
and, in a criminal case the parties, inquire of the jurors to
determine whether and how the court and counsel can assist
them in their deliberative process. After receiving the jurors’
response, if any, the court, after consultation with counsel, maydirect that further proceedings occur as appropriate.
Regarding Indiana Jury Rule 28, the Indiana Supreme Court has stated that in
certain circumstances and “with advance consultation with the parties and an
opportunity to voice objections” a trial court may, among a list of examples,

7 We agree with Warren that he did not waive the ex parte communication issue on appeal because he did
not have an opportunity to make a contemporaneous objection. See Ind. Trial Rule 46 (“[I]f a party has no
opportunity to object to a ruling or order at the time it is made, the absence of an objection does not
thereafter prejudice him.”)
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

&

Page 29 of 31

“allow counsel to briefly address the jury’s question in short supplemental
arguments” to the jury. Tincherv. Davidson, 762 N.E.2d 1221, 1224 (Ind. 2D02).
[49]

Warren does not claim that the trial court’s authority to order additional
argument on the intent element of constructive possession is not authorized by
Jury Rule 28, nor does he challenge whether the jury was at an impasse.8
Instead, he cites to the concurring opinion-in Tincher that the resolution of a
jury question should require the consent of both parties . 762 N.E.2d at 122627. The State observes that the jury rule does not require the consent of the
parties to order supplemental argument. W e agree with the State. As noted,
the Indiana Supreme Court has stated that the trial judge may use the
procedures of Jury Rule 28 to assist the jury in its deliberations, including an
opportunity—for the parties to voice objections and for the use of supplemental
argument. See Tincher, 162 N.E.2d at 1224. Warren objected to the use of
supplemental argument, and, over his objection, the trial court ordered
supplemental argument. We cannot say that the trial court abused its discretion
in ordering the parties to provide supplementafargument. See Parks v. State, 921
NJE.2d 826, 831-32 (Ind. Ct. App. 2010) (concluding that thetrial court did not

8 Jury Rule 28 applies only when the jury is at an impasse. See generally Ronco v. State, 862 N.E.2d 257 (Ind.
2007). Alternatively, Indiana Code section 34-36-1-6 gives judges some discretion to assist the jury in its
deliberation and in pertinent part provides that after the jury retires for deliberation, if “the jury desires to be
informed as to any point of law arising in the case” that “the information required shall be given in the
presence of, or after notice to, the parties or the attorneys representing the parties.”
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

33

Page 30 of 31

«>

*

err by invoking Indiana Jury Rule 28 and that replaying testimony over
defendant’s objection was not an abuse of discretion resulting in prejudice.)
[50]

Affirmed.

Najam, J., and Brown, J., concur.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2256 | June 18, 2020

34

Page 31 of 31

A

V

35

3fn tlje

3fnirtana Supreme Court
Court of Appeals Case No..
19A-CR-02256

Steven D. Warren, Jr.,
Appellant(s),

Trial Court Case No. .
02D04-1810-F2-5 0

v.

FILED
Sep 03 2020, 3:26 pm

CLERK

State Oflhdiana,
Appellee(s).

Indiana Supreme Court
k Court of Appeals A
W and Tax Court ^

Order
This matter has come before the Indiana Supreme Court on a petition'to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals 1-and the submitted record on appeal, all briefs filed in the Court of Appeals^, and all materials
filed in connection with the-request to-transfer jurisdiction have been made available to tbe~
Court for review. Each participating member has hadthe-opportunity to voice that Justice’s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition totransfer.
Done at Indianapolis, Indiana, on 9/3/2020

ii V. .■

Loretta H. Rush
Chief Justice of-Indiana
All Justices concur.

%

